                                       SOCIAL SECURITY

MEMORANDUM

Date:      March 18, 2003                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration's Processing of Internal Revenue Service Overstated
           Wage Referrals (A-03-02-22068)


           Attached is a copy of our final report. Our objective was to evaluate the Social Security
           Administration's processing of Internal Revenue Service overstated wage referrals.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.



           Attachment

           /2002
           File Code: EXT A-03-02-22068
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
   ADMINISTRATION'S PROCESSING OF
     INTERNAL REVENUE SERVICE
    OVERSTATED WAGE REFERRALS


   March 2003      A-03-02-22068
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objective was to evaluate the Social Security Administration's (SSA) processing of
Internal Revenue Service (IRS) overstated wage referrals.

BACKGROUND
Each year, a number of taxpayers contact the IRS to dispute wages posted to their
earnings record as well as the associated taxes. If the IRS concurs with the taxpayer,
the IRS sends a referral to SSA stating the earnings reported under a specific Social
Security number (SSN) do not belong to the person holding that SSN. The IRS does
not collect Federal income tax from the individual on the disputed earnings and notifies
SSA to correct the individual's earnings record. SSA and the IRS have previously
agreed on the information that is needed to process these referrals. The IRS has sent
referrals to SSA for over 10 years, and SSA has an estimated backlog of 80,000
unprocessed referrals.

RESULTS OF REVIEW
As of March 2002, the IRS had sent SSA 11,986 referrals related to Tax Year (TY) 1999
disputed wages. SSA has not processed these referrals to determine whether the
individuals have overstated wages on the Master Earnings File (MEF), SSA's database
of earnings information reported by employers and self-employed individuals.

Our review of 100 randomly selected referrals found that individuals with disputed
wages had an average age of 36, and the average disputed wages were $8,780.
Based on our sample data, the TY 1999 referrals represent about $105 million in
disputed wages, and SSA's backlog represents an estimated $702 million in disputed
wages.

We found that the overstated wage postings in our sample could lead to improper
payments or could be an indicator of identity theft. Of the 100 referrals sampled,

   ·   24 had already been corrected by the time we reviewed the MEF (the individuals
       disputing the wages contacted SSA);
   ·   65 related to wages that were still posted to the accounts of the individuals who
       disputed the wages with the IRS; and
   ·   11 had bad name/SSN combinations or the earnings in question were not on
       SSA's MEF.

Our review of the 24 referrals already corrected by SSA revealed numerous cases of
identity theft. In addition, after reviewing the 65 unprocessed referrals, we agreed with
the IRS' conclusion that the wages do not belong to the owners of the SSNs. We


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                           i
estimate approximately 7,800 of the TY 1999 IRS referrals may relate to overstated
wages not identified by SSA, causing the MEF to be overstated in TY 1999 by as much
as $66 million. If we estimate total overstated wages related to the 80,000 unprocessed
referrals, this overstatement in the MEF could total $438 million. These overstated
wages, if left uncorrected, could lead to improper payments to future retired
beneficiaries, totaling an estimated $41 million over the beneficiaries' lifetimes.

CONCLUSIONS AND RECOMMENDATIONS
Coordinating SSA and IRS actions would improve the overall effectiveness of the
disputed wage referral process. We found that the IRS is providing SSA with all of the
information specified in its written agreements with SSA. However, SSA should
renegotiate its procedures with the IRS if the Agency cannot process the referrals in
their current format. By not processing the IRS disputed wage referrals, SSA has
missed an opportunity to improve the integrity of earners' records, reduce potential
overpayments, and identify SSN misuse within the economy. Therefore, we
recommend that SSA:

·   Begin processing the IRS referrals, starting with the referrals that are most likely to
    (a) reduce overpayments, such as those related to individuals closer to retirement
    age, and (b) minimize identity theft, such as those with higher disputed wages over
    multiple TYs.

·   Work with the IRS to establish and implement procedures to process the referrals,
    which could include (a) the IRS obtaining sufficient information from the
    numberholder to allow SSA to remove the wages without additional development;
    (b) SSA requesting that future referrals be provided electronically to minimize
    handling at SSA; (c) the IRS requesting that the numberholder contact SSA to
    correct the wages; or (d) the IRS requesting that the employer send a corrected
    wage report to SSA.

AGENCY COMMENTS
SSA generally agreed with both of our recommendations. See Appendix C for SSA’s
comments.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                             ii
                                                         Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

 Status of Internal Revenue Service Referrals .......................................................3

 Indications of Improper Benefit Payments and Identity Theft ................................5

 Prioritizing the Referral Workload..........................................................................7

 Coordination with the Internal Revenue Service ...................................................8

CONCLUSIONS AND RECOMMENDATIONS.....................................................10


APPENDICES

APPENDIX A – Sampling Methodology and Results
APPENDIX B – Estimating Improper Benefit Payments Methodology and Results
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments




SSA's Processing of IRS Overstate Wage Referrals (A-03-02-22068)
                                                                   Acronyms
    CY                 Calendar Year

    ESF                Earnings Suspense File

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    OCO                Office of Central Operations

    OIG                Office of the Inspector General

    SSA                Social Security Administration

    SSN                Social Security Number

    TY                 Tax Year

    W-2                Wage and Tax Statement




SSA's Processing of IRS Overstate Wage Referrals (A-03-02-22068)
                                                                    Introduction
OBJECTIVE
Our objective was to evaluate the Social Security Administration's (SSA) processing of
Internal Revenue Service (IRS) overstated wage referrals.

BACKGROUND

Title II of the Social Security Act requires that SSA maintain an individual's reported
earnings records.1 SSA uses these reported earnings to determine insured status for
entitlement to retirement, survivors, disability and health insurance benefits and to
calculate cash benefit amounts. The earnings records show the amount of earnings
reported by the worker’s employer or the self-employed person and the periods for
which they were reported.

Each year, a number of taxpayers contact the IRS to dispute wages posted to their
earnings record as well as the associated taxes. If the IRS concurs with the taxpayer, it
sends a referral to SSA stating the earnings reported under a specific Social Security
number (SSN) do not belong to the person holding that SSN. In these cases, the IRS
does not collect Federal income tax from the individual on the disputed earnings and
notifies SSA to correct the individual's earnings record. SSA and the IRS have
previously agreed on the information needed to process the referrals. The IRS has sent
referrals to SSA for more than 10 years, and SSA is showing an estimated backlog of at
least 80,000 referrals.

The IRS referral sent to SSA, called the IRS/SSA Wage Worksheet (Form 9409),
contains information on the individual disputing the wages as well as a description of
steps the IRS has taken to resolve the issue. The referral includes such information as
the (1) name, address and SSN of the individual disputing the wages; (2) Employer
Identification Number; and (3) wages in dispute for a specific TY. The referral also
notes how the IRS resolved the issue, such as (1) "taxpayer and employer state the
taxpayer did not work for that employer," (2) "taxpayer states he/she did not work for the
above employer," or (3) the employer provided a corrected name and SSN.




1
  "On the basis of information obtained by or submitted to the Commissioner of Social Security, and after
such verification thereof as the Commissioner deems necessary, the Commissioner of Social Security
shall establish and maintain records of the amounts of wages paid to, and the amounts of self-
employment income derived by, each individual and of the periods in which such wages were paid and
such income was derived and, upon request, shall inform any individual or his survivor, or the legal
representative of such individual or his estate, of the amounts of wages and self-employment income of
such individual and the periods during which such wages were paid and such income was derived, as
shown by such records at the time of such request." 42 U.S.C. § 405(c)(2)(A).


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                           1
SCOPE AND METHODOLOGY

To meet our objective, we:

·   Reviewed SSA's policies and procedures for maintaining and changing individual
    earnings records.

·   Reviewed existing SSA guidelines for processing IRS referrals.

·   Discussed procedures related to IRS referrals with IRS employees.

·   Met with SSA employees responsible for processing IRS referrals.

·   Obtained copies of all TY 1999 IRS referrals in SSA's possession, selected a
    random sample of 100 items, and projected the associated disputed wages to the
    entire TY 1999 population. See Appendix A for details of our sampling methodology.

·   Analyzed each TY 1999 IRS referral in our sample using information from the
    following SSA files: Master Earnings file (MEF); Earnings Suspense file (ESF);2 and
    the Numident file.3 We also reviewed SSA's Wage and Tax Statement (W-2)
    information. Using this information, we determined whether we concurred with the
    IRS conclusion that the disputed wages did not belong to the numberholder in
    question. We also determined whether SSA had taken any action on the disputed
    wages separate from the referral process.

·   Estimated the improper benefit payments that SSA would make in the future if the
    IRS referrals in the backlog still in need of SSA processing were never resolved and
    the disputed wages remained on the individuals' earnings records. See Appendix B
    for details on our improper benefit payment estimate.

Our audit did not include a test of (1) the completeness of the number of IRS referrals
maintained by SSA and (2) IRS internal controls related to the referrals sent to SSA.
The SSA entity responsible for processing the IRS referrals is the Office of Central
Operations (OCO) under the Deputy Commissioner of Operations. We performed our
audit at OCO in Baltimore, Maryland, and the Office of Audit in Philadelphia,
Pennsylvania, between December 2001 and September 2002. We conducted our
review in accordance with generally accepted government auditing standards.




2
 The ESF is an electronic file housing reported earnings that cannot be associated with an individual's
name and/or SSN.
3
   The Numident file houses records of original and replacement SSN cards issued over an individual's
lifetime, as well as identifying information such as date of birth, place of birth, and parent's names.


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                         2
                                           Results of Review
SSA has not processed approximately 80,000 IRS referrals in its possession related to
individuals who disputed the wages posted to their earnings accounts. By not reviewing
these IRS referrals, SSA is missing an opportunity to correct individual earnings
records, prevent the misuse of SSNs, and reduce improper benefit payments. Although
SSA already corrected 24 percent of the referrals through other means, such as the
numberholder contacting SSA, our review found that about 65 percent of the IRS
referrals still needed to be reviewed by SSA to prevent improper benefit payments
and/or identity theft. We could not make a determination on the remaining 11 percent of
the referrals since the IRS provided incorrect information or the disputed wages were
not posted to the individual's earnings record.

STATUS OF INTERNAL REVENUE SERVICE REFERRALS
Our review of available information at SSA's OCO indicates that, as of March 2002, the
IRS had sent SSA 11,986 referrals related to disputed TY 1999 wages. However, SSA
has not processed any of these referrals to determine whether the individuals had
overstated wages on the MEF. SSA staff stated that OCO employees have
encountered difficulties attempting to reconcile earnings discrepancies using the
information on the IRS referral. The specific obstacles cited were the (1) receipt of
incomplete forms; (2) lack of supporting documentation; and (3) inability to further
develop the record with the IRS processing center that sent the form. In addition,
although SSA and IRS officials exchanged a series of memorandums from 1985 to
1992 regarding the IRS referral process in general, SSA staff stated the Agency does
not have any formal policy or procedures in place to process the forms.

Characteristics of Internal Revenue Service Referrals

In our review of 100 randomly selected IRS referrals in TY 1999, we found the following
characteristics among the individuals in our sample.

·   The average age was 36, with the youngest being 18 years old, and the oldest
    being 74 years old (see Figure 1 for a distribution of ages).
·   Individuals had an average disputed wage of $8,780, ranging from $15 to $72,600.
·   Disputed wages represented, on average, about 33 percent of each individual's
    TY 1999 total earnings (see Figure 2 for a distribution of disputed wages in our
    sample).
·   Individuals born outside the United States comprised 43 percent of our sample.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                        3
                                                                         Figure 1: A ge D istribution of
                                                                         Individuals in TY 1999 S am ple

                                                      35

                                                      30                           34


                              Number of Individuals
                                                      25
                                                                                                       27
                                                      20

                                                      15
                                                                 21

                                                      10                                                                     14
                                                        5

                                                        0
                                                            Ag e 2 5 a n d     Ag e 2 6 -3 5       Ag e 3 6 -5 0        Ag e 5 1 a n d
                                                               Un d e r                                                    Over
                                                                                      Ag e G ro u p in g

                              Note: W e could not determ ine the age of 4 individuals since their inform ation could not be confirm ed—
                              the SSNs furnished by the IRS did not m atch SSA's records.




                                                            Figure 2: Disputed Wage Distribution
                                                              for Individuals in TY 1999 Sample



                                                      $0 to $1,000                                                        20

                                                                                                                                       24
           Wage Grouping




                             $1,001 to $5,000

                            $5,001 to $10,000                                                                                                29

                           $10,001 to $20,000                                                                      18

                                               Over $20,000                                    9

                                                                     0        5           10          15           20             25        30
                                                                                          Number of Individuals




Projecting our 100 sample referrals to the population of TY 1999 referrals, we estimate
the IRS referred to SSA approximately $105 million in disputed wages for TY 1999 (see
Appendix A). SSA staff estimated that approximately 80,000 referrals were pending
action—including the TY 1999 items in our audit. If we assume the characteristics in
this backlog are similar to that of our sample, this backlog of referrals could represent as
much as $702 million in disputed wages.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                                                                 4
INDICATIONS OF IMPROPER BENEFIT PAYMENTS AND IDENTITY
THEFT
In our review of 100 sample cases, we found credible evidence that the disputed wages
did not belong to the individuals. As a result, the overstated wage postings in our
sample could relate to SSN misuse and lead to improper benefit payments. Of the
100 IRS referrals in our sample, we found the following:

·     24 referrals had already been corrected when we reviewed the MEF4—in most
      cases, the individuals had contacted SSA, and the Agency agreed the wages did not
      belong to the individuals;
·     65 referrals related to questionable wages that were still posted to the accounts of
      the individuals who disputed them with the IRS; and
·     11 referrals contained insufficient or erroneous information, such as a bad
      name/SSN combination or the earnings in question were not on SSA's MEF.

In conducting our review of the referrals, we used SSA’s records and files to determine
whether the disputed wages belonged to the individuals. For example, we (1) analyzed
the individual's earnings history on the MEF to understand their wage patterns and
industry of employment; (2) compared the address on the referral to addresses on W-2s
for the same TY and/or same employer in different TYs; and (3) reviewed SSA’s
activities related to the individual that may have indicated other problems with posted
wages.

Potential Social Security Number Misuse

In the 24 cases already corrected by SSA, we found 16 cases (67 percent) with clear
indications of SSN misuse.5 In these cases, the individuals contacted SSA to correct
their earnings records. We could not determine what initiated their contact with SSA for
most of the cases, but prior contact with the IRS was cited as the reason in at least
three of these cases. Many of these earnings discrepancy cases involved more than
1 year and/or more than one employer.

·     In 16 of the 16 cases (100 percent), SSA removed more than 1 year of earnings.
·     In 15 of the 16 cases (94 percent), disputed earnings had been posted by more than
      1 employer.

In total, SSA removed 58 years of earnings related to 128 employers in these 16 cases,
an average of about 4 years and 8 employers per individual. For example, in one case,
SSA removed $115,823 from an individual's earnings record. Eight employers in
Georgia, Tennessee, and Texas reported earnings under the same SSN from 1998 to
2001. Four employers reported earnings for multiple years, while the other four
4
    In most cases, the earnings were placed in the ESF for later resolution.
5
 The eight remaining cases related to employer wage reporting errors, such as the employer reporting
multiple W-2s, or reporting reimbursements as wages.


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                      5
employers reported earnings for 1 year. The individual notified SSA that someone was
using his SSN, and SSA contacted the eight questionable employers. Of the five
employers that responded, three indicated they no longer employed the individual, while
two stated someone was still working there using the individual's SSN (two different
people). SSA requested the latter two employers ask the individual using the disputed
SSN to contact the local SSA field office. We contacted the field office where the
correction was made, but we were unable to determine how the potential identity theft
was resolved.

In another example, SSA removed $96,456 in earnings from an individual's record.
Wages were reported as earned under the same SSN from seven employers in
Wisconsin and Texas over a 4-year period. Five employers reported earnings under
this individual’s SSN for multiple years, and two employers reported earnings using this
SSN for 1 year. The individual contacted SSA and reported losing his SSN card. SSA
contacted the employers, who provided photo identification cards for the employees
using this SSN. From the photographs, SSA concluded that two different individuals
were working under the assumed name of the SSN holder. One of the individuals
provided the employer a Wisconsin State photo identification card, and the other gave
his employer a Milwaukee County identification card—both apparently bearing the false
name.

Potential Improper Payments

In those 65 referrals where we agreed with the IRS' conclusion that the wages do not
belong to the individuals in question, SSA is increasing the risk of improper benefit
payments by not processing the referrals and removing the disputed wages. We
estimate that approximately 65 percent of the 11,986 referrals in TY 1999, or
7,791 disputed wage items, may relate to overstated wages not identified by SSA. We
further estimate that these 7,791 wage items, if left uncorrected, could cause the MEF
to be overstated in TY 1999 by as much as $66 million. If we estimate overstated
wages related to the 80,000 unprocessed referrals, this overstatement in the MEF could
be as large as $438 million.6

These overstated wages, if left uncorrected, could lead to improper benefit payments to
future retired beneficiaries totaling an estimated $41.4 million over the beneficiaries'
lifetimes (see Appendix B for our methodology and calculations). Our improper
payment estimate is based on a number of assumptions taken from our sample, such
as the individual's age, disputed wage amount, and disputed wages as a percentage of
total wages for the unprocessed referrals. We also assumed each individual would
retire at age 65 and collect benefits for 15 years.



6
 This $438 million estimate is calculated using our sample results and applying those results to SSA's
backlog, assuming our sample results are representative of the entire backlog. Our estimate assumes
65 percent of the 80,000 backlog referrals are in need of processing by SSA, and this product was
multiplied by the average disputed wage of the unprocessed referrals ($8,438).


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                        6
We reviewed one sample case to determine the specific impact of overstated wages in
terms of both retirement and disability benefits. This individual, born in 1953, had a total
of $110,723 in disputed wages removed from his earnings record.7 Eight employers
reported these wages over a 4-year period—TYs 1998 through 2001. If this individual
retires at age 62, these disputed wages will increase his retirement benefit by $87 per
month. If the man had become disabled in 2001 and began receiving disability benefits
based on the erroneous earnings, these benefits would be overstated by $139 per
month, or $1,668 annually.

The disputed wages in our sample may indicate similar problems in other TYs for the
same individual, magnifying the impact of overstated wages in the MEF. We could not
determine the full extent of problem wages per individual since SSA did not
electronically track data for all 80,000 referrals in its possession. If such information
were available, we could assess trends in the data, such as total disputed wages per
SSN or total disputed wages per employer.

PRIORITIZING THE REFERRAL WORKLOAD
Based on the results of our sample, 65 percent of the unprocessed referrals would need
some form of action. SSA could reduce its overall referral workload by eliminating from
review those cases that either (1) have already been resolved (that is, the 24 cases
noted above) or (2) contain incorrect information which limit SSA's ability to resolve the
issue (incorrect name/SSN combinations or unposted amounts). SSA could further
reduce this referral workload by prioritizing the processing of the remaining IRS
referrals. For example, SSA could prioritize working those referrals where (1) the
numberholder is close to retirement; (2) the disputed wages are a high percentage of
total earnings; and/or (3) the disputed amounts cover multiple years. This would target
those cases most likely to produce improper benefit payments.8

In our sample, we found the following characteristics among the 65 referrals that were
never processed by SSA:

·     18 individuals were age 40 or older, and presumably closer to collecting retirement
      or disability benefits than younger individuals;
·     9 individuals had disputed wages representing 50 percent or more of their total
      earnings in TY 1999; and
·     42 individuals had disputed earnings in more than 1 year for the employer on the
      IRS referral.9

7
  SSA corrected these disputed wages when the individual contacted SSA. We use this for illustrative
purposes since our review focused on TY 1999 information only, while this corrected record indicates that
the problem can relate to multiple TYs.
8
    SSA would need to process all 65 cases if the purpose is to reduce the risk of ongoing identity theft.
9
 We are assuming that if the individual is disputing the TY 1999 earnings from a particular employer, that
other earnings reports from that same employer may also be incorrect.


SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                            7
Although SSA could use any of these conditions to further refine the workload, we found
that 3 individuals met all 3 of the conditions noted above, and an additional
15 individuals met 2 of the conditions.

Furthermore, SSA could benefit from having all pending referrals available in a
database before any actions by staff. Information within this referral database could be
compared to information on the MEF, eliminating those items that have already been
corrected as well as those items that have insufficient information for SSA action.
Based on the results of our sample, such a match would have eliminated 35 percent of
the TY 1999 referrals. SSA could then categorize the remaining 65 percent in a manner
similar to our proposed classification (age of individual, ratio of disputed earnings to
total earnings, number of years with disputed earnings) or decide on other appropriate
categories. Based on the results of such sorting (and other factors, such as the
availability of resources) SSA could decide which referrals should be processed first.

COORDINATION WITH THE INTERNAL REVENUE SERVICE
Based on prior correspondence between SSA and the IRS regarding the referrals, the
IRS referrals appear to provide the information agreed to by the two agencies.
However, SSA has failed to follow through on its commitments to the overall process.

In an August 26, 1991 memorandum to the IRS, SSA's Associate Commissioner for
Retirement and Survivors Insurance specifically requested minimum information from
the IRS for SSA to take corrective action, including

·   the taxpayer's name on the W-2;
·   the taxpayer's SSN on the W-2;
·   the Employer Identification Number;
·   the TY;
·   the wage amount; and
·   the taxpayer's current address.

SSA also noted that the taxpayer's address is needed "…so that we may contact him to
obtain an affidavit (or other confirming evidence) as to his or her earnings, any
information he or she might have about the identity of the person using the taxpayer's
Social Security number, and to permit us to notify him or her about the adjustment of
earnings after it was approved…."

Our review of the information on the IRS Form 9409 indicates that the IRS is providing
SSA all the agreed upon data. Nonetheless, SSA has not processed any of these
referrals as it proposed to do in the above referenced memorandum. When we
discussed this issue with SSA staff, they noted the Agency needs the IRS to provide
more information from either the employer or employee, such as a corrected
W-2 (W-2C) or a signed statement from the individual disclaiming the wages. However,



SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                      8
in devising this referral process, SSA had not requested such information from the IRS
but instead acknowledged that SSA staff would have to obtain an affidavit.

SSA should renegotiate the referral procedures with the IRS if it is unable to process the
referrals in their current format. For instance, SSA could request that the IRS obtain
additional information from the numberholder to allow SSA to remove the wages without
additional development. At a minimum, the IRS could be asked to request that the
(1) SSN holder contact SSA to correct the wages or (2) employer send a corrected
wage report to SSA. Absent these modifications, SSA would need to directly contact
the numberholder and obtain sufficient support for the wage removal, as SSA originally
proposed in discussions with the IRS.

In addition, SSA could improve the overall efficiency of the referral process if future
referrals were provided electronically. Electronic files could minimize handling and
allow SSA to (1) determine trends in a more timely fashion and (2) compare the referral
information to the MEF. These electronic referrals could be immediately entered into an
SSA database and then used to (1) screen and prioritize the referral information;
(2) determine trends such as multiple years of earnings being disputed; and
(3) compare the referral information to the MEF to determine which disputed wages
were already corrected. For example, SSA could have IRS referrals for the same
individual and employer for a number of years, but, currently, the Agency would be
unaware of this because of the absence of internal referral processing data.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                        9
                                             Conclusions and
                                          Recommendations
SSA has missed an opportunity to improve the integrity of earner's records, reduce
potential overpayments, and identify SSN misuse within the economy. We believe SSA
can reduce the overall workload related to unprocessed referrals by creating a database
to highlight trends and prioritize cases based on the likelihood of improper benefit
payments and/or identity theft. SSA should renegotiate its referral procedures with the
IRS if the current process is not providing the Agency the necessary information in the
right format to resolve the underlying issues.

To improve the integrity of the MEF, prevent potential overpayments, and detect
instances of identity theft, we recommend that SSA:

1. Begin processing the backlogged IRS referrals, starting with the referrals that are
   most likely to (a) reduce overpayments, such as those related to individuals closer to
   retirement age, and (b) minimize identity theft, such as those with higher disputed
   wages over multiple TYs.

2. Work with the IRS to establish and implement procedures to process the referrals,
   which could include (a) the IRS obtaining sufficient information from the
   numberholder to allow SSA to remove the wages without additional development;
   (b) SSA requesting that future referrals be provided electronically to minimize
   handling at SSA; (c) the IRS requesting that the numberholder contact SSA to
   correct the wages; or (d) the IRS requesting that the employer send a corrected
   wage report to SSA.

AGENCY COMMENTS
SSA generally agreed with both of our recommendations. Specifically, SSA agreed to
(1) develop a workplan to begin processing the workload while considering budget and
resource constraints and (2) form a workgroup with IRS to revisit the overall process to
implement processing improvements and/or automate this workload. (See Appendix C
for SSA’s comments.)




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                      10
                                      Appendices




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)
                                                                      Appendix A

Sampling Methodology and Results
To complete our objective, we reviewed the Social Security Administration's (SSA)
paper files of Internal Revenue Service Form 9409 referrals related to multiple tax years
(TY). Based on our review, we identified 11,986 referrals related to TY 1999. From
these 11,986 referrals, we selected a random sample of 100 cases for detailed review.


                              Sample Results and Projection

 Population size                                                                  11,986
 Sample size                                                                         100
                         TY 1999 Population - Dollar Projection
 Disputed wages for 100 sample items                                          $877,999
 Projection of disputed wages for TY 1999 referrals                        $105,236,960
    Projection lower limit                                                  $83,230,311
    Projection upper limit                                                 $127,243,609
                            Unprocessed TY 1999 Referrals
                                   Attribute Projection
 Sample referrals that need processing by SSA                                         65
 Projection of TY 1999 referrals that need processing by SSA                       7,791
    Projection lower limit                                                         6,763
    Projection upper limit                                                         8,738
                                    Dollar Projection
 Sample disputed wages for 65 referrals that need processing by                $547,965
 SSA
 Projection of disputed wages for TY 1999 referrals that need               $65,679,928
 processing by SSA
    Projection lower limit                                                  $50,957,622
    Projection upper limit                                                  $80,402,234
Note: Results are reported at the 90-percent confidence level.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)
                                                                        Appendix B

Estimating Improper Benefit Payments
Methodology and Results
We estimated the improper benefit payments related to the referrals still in need of
Social Security Administration (SSA) processing. Our improper benefit payment
estimate is based on a number of assumptions taken from our sample, such as the
individual's age, disputed wage amount, and disputed wages as a percentage of total
wages for the unprocessed referrals. We also assumed each individual would retire at
age 65 and collect benefits for 15 years and assumed the individual would be earning
the average annual wage as determined by SSA in its Statistical Supplement for 2001.
Additional assumptions can be found below.

The actual improper benefit payments could vary because of a number of factors. For
example, our calculation would overestimate the improper benefit payments if some of
the individuals collected retirement benefits on other individuals' earnings histories, such
as a spouse's record. However, the calculation would underestimate the improper
payments if some of the individuals became disabled before age 65.


                         Calculation                                Resulting Amount
 Calendar Year (CY) 2000 Old-Age, Survivors and Disability
 Insurance (OASDI) retirement benefit due to an individual                         $965.60
 should the disputed wage not be removed by SSA
 CY 2000 OASDI retirement benefit due to an individual
 should the disputed wage be removed by SSA                                        $959.70
 Potential monthly overpayment per individual related to the
 CY 2000 OASDI retirement benefit                                                     $5.90
 Potential annual overpayment per individual related to the
 CY 2000 OASDI retirement benefit                                                   $70.80
 Potential lifetime overpayment per individual related to the
 CY 2000 OASDI retirement benefit (total of 15 years)                             $1062.00
 Potential annual overpayments related to the Tax Year (TY)
 1999 population of 7,791 referrals that need processing by                     $8,274,042
 SSA
 Potential lifetime overpayments related to 38,955 referrals
 (5 years worth in SSA's backlog) that need processing by                     $41,370,210
 SSA




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                       B-1
Additional Calculation Assumptions

(1) To determine the CY 2000 OASDI retirement benefit due an individual should the
    disputed wage not be removed by SSA, we assumed the characteristics of our
    sample were consistent for the entire TY 1999 population, including

   ·   the average age of an individual when the disputed wages were posted was
       35; and
   ·   the percent of total wages in dispute was 25 percent of total wages earned.

(2) Each individual in the population will have at least 35 years of wages posted to their
    earnings record before retiring at age 65. In addition, those recorded wages will
    occur in the 35 years before their retirement and be equal to the Average Annual
    Wage as reported by SSA in Table 2.8A of its Social Security Bulletin, 2001 Annual
    Statistical Supplement. We used CY 2000 as a baseline since the earnings
    information in our sample was though CY 1999.

(3) The CY 2000 improper payments are shown in present day dollars.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                       B-2
                                                                    Appendix C
Agency Comments




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)
                                        SOCIAL SECURITY
MEMORANDUM                                                                            32008-24-857


Date:       March 6, 2003                                                      Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye     /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Review of the Social Security
            Administration's Processing of Internal Revenue Service Overstated Wage Referrals”
            (A-03-02-22068)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION'S (SSA) PROCESSING OF
INTERNAL REVENUE SERVICE (IRS) OVERSTATED WAGE REFERRALS”
(A-03-02-22068)


We appreciate the opportunity to review and comment on the draft report and appreciate your
efforts. Our comments to the specific recommendations are provided below.

Recommendation 1

Begin processing the IRS referrals, starting with the referrals that are most likely to: a) reduce
overpayments, such as those related to individuals closer to retirement age; and b) minimize
identity theft, such as those with higher disputed wages over multiple tax years.

Comment

We agree that this workload should be processed, but not in the priority recommended. This
type of prioritization requires a considerable level of effort since the form does not contain age
related information. Also, IRS does not correlate referrals for multiple tax years for the same
individual and we receive forms from multiple IRS centers. Since this is a paper driven process
and the referrals are backlogged by year, not by Social Security number, numberholder’s age or
benefit status, we believe efforts to prioritize/sort this work is labor intensive and not cost-
effective. Therefore, we will develop a work plan to begin processing the workload considering
our current budget/resource constraints. We plan to start working the cases based on tax year
and to screen the backlog of earlier tax years for those that may require no action. Based on
sampling from previous years, we believe a large portion of this workload will require no action.
Once the screening process is complete, we plan to prioritize those remaining cases.

This process will allow us to reduce the overall backlog while processing both current and aged
forms. Throughout the process we will collect processing statistics for future resource/budget
considerations and determine any procedural changes that may need to be made to the process.

Recommendation 2

Work with the IRS to establish and implement procedures to process the referrals, which could
include: a) the IRS obtaining sufficient information from the numberholder to allow SSA to
remove the wages without additional development; b) SSA requesting that future referrals be
provided electronically to minimize handling at SSA; c) the IRS requesting that the
numberholder contact SSA to correct the wages; or d) the IRS requesting that the employer send
a corrected wage report to SSA.

Comment

We will form a workgroup with IRS to revisit the overall process and work with them to
implement processing improvements that streamline and/or automate this workload.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)                                C-2
                                                                        Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
       Walter Bayer, Director, (215) 597-4080

       Rona Rustigian, Director, (617) 565-1819

Staff Acknowledgments

In addition to those names above:

       Michael Thomson, Auditor-in-Charge

       Brennan Kraje, Statistician


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-02-22068.




SSA's Processing of IRS Overstated Wage Referrals (A-03-02-22068)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Audit
 Director, Data Analysis and Technology Audit Division
 Director, Financial Audit Division
 Director, Southern Audit Division
 Director, Western Audit Division
 Director, Northern Audit Division
 Director, General Management Audit Division
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
